                                                                                         Office ofInspector General
                                                                                         Office ofEmergency Management Oversight

                                                                                         U.S. Depar.tment of Homeland Security
                                                                                         300 Frank H. Ogawa Plaza, Ste. 275
                                                                                         Oakland, California 94612


                                                                                        Homeland
                                                                                        Security
                                                       January 25,2008


MEMORANDUM FOR:                         Nancy Ward
                                        Regional Administrator
                                        FEMA Region IX

                                         r.«bdfi.~
FROM:                                   Robert 1. <ILastrico
                                        Director
                                        Western Region,al Office
                                                         .\   \
SUBJECT:                                Interim Audit ofSan Diego County, California
                                        Public Assistance Identification Number 073-99073-00
                                        FEMA Disaster Number 1498-DR-CA
                                        Audit Report·Number DS-08-01

The Department of Homeland Security Offic~;of Inspector General audited public assistance grant
funds awarded to San Diego County, California (County). The objective of this interim audit was to
determine whether the County expended and accounted for Federal Emergency Management
Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The County received a public assistance grant award of$9.9 million from the California Governor's
Office of Emergency Services (OES), a FEMA grantee, for debris removal, emergency protective
measures, and repair of County facilities damaged as a result of fires beginning on October 21, 2003.
The award provided 75% federal funding for 32 large projects and 114 small projects. l The audit
covered the period October 21,2003, to November 8,2007, and included a review ofthree large
projects with total funding of $3,680, 175. As noted in the table below, two of the three projects
experienced a cost under-run totaling $309,980, and the County plans to request a reduced
reimbursement for these projects.

                       Project                                        Actual
                       Number         Amount Awarded               Disaster Costs             Under-Run
                          226           $1,955,055                  $1,876,711                 $78,344
                            10             873,460                      873,460                             o
                         1017              851,660                      620;024                 231,636
                        Total           $3,680,175                   $3,370,195                $309,980




I   Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, OES, and County records, a judgmental sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.

The audit confirmed that the County expended and accounted for FEMA funds according to federal
regulations and FEMA guidelines. We informed FEMA, OES, and the County of the results on
November 28,2007. Since this report contains no recommendations, a response is not required.
Should you have any questions concerning this report, please contact me at (510) 637-1761. Key
contributors to this report were Humberto Melara, Jeff Flynn, and Gloria Conner.




                                          \   \




                                                  2
